                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00306-95




    Combined Assessment Program 

           Review of the 

        VA Eastern Colorado 

         Health Care System 

          Denver, Colorado 





March 19, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Eastern Colorado Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                      CAP Review of the VA Eastern Colorado Health Care System, Denver, CO



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              26

  F. Report Distribution .............................................................................................            27

  G. Endnotes ...........................................................................................................         28





VA OIG Office of Healthcare Inspections
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
January 13, 2014.

Review Results: The review covered seven activities.                           We    made     no
recommendations in the following three activities:

 Environment of Care

 Medication Management

 Coordination of Care

The facility’s reported accomplishments were Lean Six Sigma implementation and the
Telehealth Program.

Recommendations: We made recommendations in the following four activities:
Quality Management: Reassess observation criteria and utilization timely when
conversions from observation bed status to acute admissions are over 30 percent.
Perform continuing stay reviews on at least 75 percent of patients in acute beds.
Ensure the Surgical Work Group meets monthly and includes the Chief of Staff as a
member.

Nurse Staffing: Implement the nurse staffing methodology. Ensure that the facility
expert panel includes all required members and that all members of the facility and
unit-based expert panels receive the required training.

Pressure Ulcer Prevention and Management: Ensure all patients discharged with
pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged.

Community Living Center Resident Independence and Dignity: Complete and document
restorative nursing services according to clinician orders and/or residents’ care plans.
Provide all care planned/ordered assistive eating devices to residents for use during
meals. Ensure there are no unnecessary disruptions during resident meal periods.




VA OIG Office of Healthcare Inspections                                                         i
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–25, for the full
text of the Directors’ comments.) We consider recommendation 3 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
January 12, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                        1
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Eastern Colorado Health Care System, Denver, Colorado,
Report No. 09-03040-114, March 24, 2010).

During this review, we presented crime awareness briefings for 239 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
436 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Lean Six Sigma Implementation
The facility has improved patients’ experiences and quality outcomes by integrating
patient-centered Lean Six Sigma implementation with strategic planning. In FY 2013,
the facility conducted an Enterprise Wide Value Stream Analysis that identified areas in
need of organizational improvement, such as access to care, MH, inpatient flow, and
staff and employee engagement. These areas were selected based on metrics from
various sources analyzed from the previous year and align with VHA’s strategic plan.
Using Lean Six Sigma methodology, interdisciplinary teams consisting of frontline staff
were chartered to improve both clinical and administrative areas and successfully
completed 22 Rapid Process Improvement Workshops. Successes include a reduction
in ventilator-associated pneumonia incidents, improved patient flow in the Infusion
Center, a decrease in missed appointments, and improved staff satisfaction through
engagement.

Telehealth Program
The facility’s Telehealth Program has expanded to 24 telehealth clinics, including MH,
dermatology, gynecology, pain, post-traumatic stress disorder, and wheelchair seating
clinics.    Ten of these clinics support other VHA facilities in Sheridan and
Cheyenne, WY; Helena, MT; and Grand Junction, CO. The program also provides
educational opportunities in dermatology, where residents review images sent from
remote locations through a “Store and Forward” program. Currently, more than
11,000 veterans (over 15 percent of the facility’s patients) receive care through the
Telehealth Program.




VA OIG Office of Healthcare Inspections                                                        2
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                           Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


NM             Areas Reviewed (continued)                                          Findings
 X     Observation bed use met selected                     Twelve months of data reviewed:
       requirements:                                         For December 2012–November 2013,
        Local policy included necessary elements.            50 percent of observation patients were
        Data regarding appropriateness of                    converted to acute admissions, and the
          observation bed usage was gathered.                 facility had not reassessed observation
        If conversions to acute admissions were              criteria or utilization during that time.
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 X     Staff performed continuing stay reviews on at        Twelve months of continuing stay data reviewed:
       least 75 percent of patients in acute beds.           For all 12 months, less than 75 percent of
                                                              acute inpatients were reviewed.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected              The Surgical Work Group only met 4 times
       requirements:                                          over the past 12 months.
        An interdisciplinary committee with                 The Chief of Staff was not a member of the
          appropriate leadership and clinical                 Surgical Work Group.
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                     4
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


NM              Areas Reviewed (continued)                                      Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that when conversions from
observation bed status to acute admissions are over 30 percent, observation criteria and
utilization are reassessed timely.

2. We recommended that processes be strengthened to ensure that continuing stay reviews
are performed on at least 75 percent of patients in acute beds.

3. We recommended that the Surgical Work Group meet monthly and include the Chief of
Staff as a member.




VA OIG Office of Healthcare Inspections                                                                     5
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the locked MH, medical intensive care, and medical/surgical inpatient units; the
emergency and radiology departments; the primary care, specialty care, and dental outpatient
clinics; and the CLC. Additionally, we reviewed relevant documents, conversed with key
employees and managers, and reviewed 30 employee training records (10 radiology
employees, 10 acute MH unit employees, 5 Multidisciplinary Safety Inspection Team members,
and 5 occasional acute MH unit employees). The table below shows the areas reviewed for this
topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM            Areas Reviewed for General EOC                                    Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                     6
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


NM      Areas Reviewed for Radiology (continued)                                 Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
       MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


NM      Areas Reviewed for Acute MH (continued)                                  Findings
       The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                     8
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                      with key managers and employees.
Additionally, we reviewed the EHRs of 31 randomly                selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the           areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The           facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                          Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 32 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                          Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    10
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 36 training files, and we
conversed with key employees. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
 X     The facility either implemented or reassessed         Initial implementation had not been
       a nurse staffing methodology within the                completed.
       expected timeframes.
 X     The facility expert panel followed the required       The facility expert panel did not include the
       processes and included the required                    evening supervisor or direct care staff nurses.
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
 X     Members of the expert panels completed the            Four of the 18 members of the unit-based
       required training.                                     expert panels had not completed the required
                                                              training.
                                                             Five of the 18 members of the facility expert
                                                              panel had not completed the required
                                                              training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

4.    We recommended that the nurse staffing methodology be implemented.

5. We recommended that the annual staffing plan reassessment process ensures that the
facility expert panel includes all required members.

6. We recommended that all members of the facility and unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                    11
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 16 EHRs of patients with pressure ulcers (4 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
2 patients with pressure ulcers at the time of our onsite visit), and 7 employee training records.
Additionally, we inspected two patient rooms. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                          Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed        Two of the applicable five EHRs did not
       at discharge, a wound care follow-up plan was          contain evidence of wound care follow-up
       documented, and the patient was provided               plans at discharge or of patient receipt of
       appropriate dressing supplies.                         dressing supplies prior to discharge.




VA OIG Office of Healthcare Inspections                                                                     12
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


NM             Areas Reviewed (continued)                                       Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

7. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    13
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed six EHRs of residents (three residents receiving restorative nursing services and
three residents not receiving restorative nursing services but candidates for services). We also
observed one resident during two meal periods, reviewed five employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                          Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented               In all three applicable EHRs, there was
       restorative nursing services, including active         insufficient documentation that facility staff
       and passive range of motion, bed mobility,             completed restorative nursing services
       transfer, and walking activities, according to         according to clinician orders and/or residents’
       clinician orders and residents’ care plans.            care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 X     Care planned/ordered assistive eating devices         Four of the six assistive eating devices care
       were provided to residents at meal times.              planned/ordered were not provided.




VA OIG Office of Healthcare Inspections                                                                       14
                                          CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


NM         Areas Reviewed for Assistive Eating                                  Findings
         Devices and Dining Service (continued)
 X     Required activities were performed during             There were unnecessary disruptions during
       resident meal periods.                                 resident meal periods such as a lack of eating
                                                              utensils, a delay in food preparation, and floor
                                                              mopping around residents.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that all care planned/ordered
assistive eating devices are provided to residents for use during meals.

10. We recommended that processes be strengthened to ensure that there are no unnecessary
disruptions during resident meal periods.




VA OIG Office of Healthcare Inspections                                                                     15
                                    CAP Review of the VA Eastern Colorado Health Care System, Denver, CO
                                                                                             Appendix A


                  Facility Profile (Denver/554) FY 2014 through
                                   January 2014a
Type of Organization                                                               Tertiary
Complexity Level                                                                   1a-High complexity
Affiliated/Non-Affiliated                                                          Affiliated
Total Medical Care Budget in Millions (September 2013)                             $569.1
Number of:
    Unique Patients                                                               53,625
    Outpatient Visits                                                             252,858
    Unique Employeesb                                                             2,200
Type and Number of Operating Beds (December 2013):
    Hospital                                                                      129
    CLC                                                                           100
    MH                                                                            59
Average Daily Census (December 2013):
    Hospital                                                                      103
    CLC                                                                           72
    MH                                                                            44
Number of Community Based Outpatient Clinics                                       8
Location(s)/Station Number(s)                                                      Aurora/554GB
                                                                                   Lakewood/554GC
                                                                                   Pueblo/554GD
                                                                                   Colorado Springs/554GE
                                                                                   Alamosa/554GF
                                                                                   La Junta/554GG
                                                                                   Lamar/554GH
                                                                                   Burlington/554GI
VISN Number                                                                        19




a
    All data is for FY 2014 through January 2014 except where noted.

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                              CAP Review of the VA Eastern Colorado Health Care System, Denver, CO
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                        17
                                                    CAP Review of the VA Eastern Colorado Health Care System, Denver, CO



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                              18
                                                                                              CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           19
                               CAP Review of the VA Eastern Colorado Health Care System, Denver, CO
                                                                                        Appendix C
                                VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date: 	          February 24, 2014

       From: 	          Director, Rocky Mountain Network (10N19)

       Subject: 	       CAP Review of the VA Eastern Colorado Health Care
                        System, Denver, CO

       To: 	            Director, Denver Office of Healthcare Inspections (54DV)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. We are submitting written comments in response to the Combined
          Assessment Program Review completed January 13–17, 2014, at the
          VA Eastern Colorado Health Care System at Denver, Colorado.

       2. In reviewing the draft report, the facility has addressed all identified
          deficiencies and has a plan to resolve all non-compliant areas cited in
          the report. Network 19 concurs with the report.

       3. If you have any questions regarding this response, please contact
          Ms. Susan Curtis, VISN 19 HSS at (303) 639-6995.


                 (original signed by:)
           Ralph T. Gigliotti, FACHE




VA OIG Office of Healthcare Inspections                                                         20
                              CAP Review of the VA Eastern Colorado Health Care System, Denver, CO
                                                                                       Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           February 21, 2014

       From:           Director, VA Eastern Colorado Health Care System (554/00)

       Subject:        CAP Review of the VA Eastern Colorado Health Care
                       System, Denver, CO

       To:             Director, Rocky Mountain Network (10N19)

       1. We are submitting written comments in response to the Combined
          Assessment Program Review completed January 13–17, 2014, at the
          VA Eastern Colorado Health Care System (ECHCS) at Denver,
          Colorado.

       2. In reviewing the draft report, the facility has addressed all identified
          deficiencies and has a plan to resolve all non-compliant areas cited in
          the report. ECHCS concurs with the report.

       3. If you have any questions regarding this response, please contact
          Mr. Keith Harmon at (303) 398-7469.


           (original signed by:)
           Lynette A. Roff




VA OIG Office of Healthcare Inspections                                                        21
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
when conversions from observation bed status to acute admissions are over 30 percent,
observation criteria and utilization are reassessed timely.

Concur

Target date for completion: August 31, 2014

Facility response: All observation patients will be assessed daily for appropriate bed
status based on current utilization management (UM) criteria. Providers/care teams will
be notified of identified issues. On an on-going basis data on reasons for conversions
to admission status will be collected and action plans developed/implemented to
decrease conversions based on this data.

ECHCS will perform monthly monitoring over the next 6 months. This will be reported to
the Performance Improvement Board and will be reflected in the monthly minutes.

Recommendation 2. We recommended that processes be strengthened to ensure that
continuing stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: July 31, 2014

Facility response: Utilization reviews for continued stays will be performed on at least
75 percent of patients in acute beds according to the National UM performance
measure. UM reviewers and inpatient care coordinators daily primary goal will be
completion of UM reviews. Secondary goals will include support of discharge planning
functions after UM reviews are completed and as needed.

UM will perform weekly audits over the next 5 months to ensure compliance. This will
be reported to the Performance Improvement Board and will be reflected in the monthly
minutes.

Recommendation 3. We recommended that the Surgical Work Group meet monthly
and include the Chief of Staff as a member.

Concur

Target date for completion: January 31, 2014



VA OIG Office of Healthcare Inspections                                                       22
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


Facility response: Meetings are now scheduled monthly as of January and Chief of
Staff is a permanent attendee for the Surgical Work Group.

Recommendation 4.             We recommended that nurse staffing methodology be
implemented.

Concur

Target date for completion: June 30, 2014

Facility response: Based on staffing methodology review, Nursing Service will present
their recommendation for staffing to the ECHCS Director by February 28, 2014.
Decisions to allocate resources to each unit based on the medical center’s projected
budget and in consideration of the justification for the requested full-time employee
equivalent will be made subsequent to this presentation. Nurse Managers will be
trained to monitor the actual nursing hours per patient day versus the target nursing
hours per patient day, analyze the variances, and make recommendations for action.

Nursing Service will implement Nurse Staffing methodology within the next 4 months
and develop an ongoing monitoring program to assure continuous compliance. This will
be reported to the Governing Board and will be reflected in the monthly minutes.

Recommendation 5. We recommended that the annual staffing plan reassessment
process ensures that the facility expert panel includes all required members.

Concur

Target date for completion: April 30, 2014

Facility response: Existing expert panel members will be given the opportunity to
continue as members for FY15. Additional expert panel members will be added to
insure the inclusion of all required members per directive. All current and future expert
panel members will be apprised of the responsibilities involved in participating as a
member of the facility expert panel.

Nursing Service will ensure additional members have been added within 2 months.
This will be reported to the Governing Board and will be reflected in the minutes.

Recommendation 6. We recommended that all members of the facility and unit-based
expert panels receive the required training prior to the next annual staffing plan
reassessment.

Concur

Target date for completion: December 30, 2014

Facility response: Current unit-based expert panel members will be assigned to
complete the required training by May 30, 2014. All new unit-based expert panel


VA OIG Office of Healthcare Inspections                                                       23
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


members at the time of the October 2014 staffing plan reassessment will be assigned to
complete the required training by December 30, 2014.

Nursing Service will ensure that all expert panel members have completed the training
prescribed.

Recommendation 7. We recommended that processes be strengthened to ensure that
all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to being discharged and that compliance be monitored.

Concur

Target date for completion: May 30, 2014

Facility response: Medicine service at orientation receives the newly developed
Wound Care Treatment fact sheet. Pressure ulcer orders now have an added
notification “patient has a pressure ulcer, please notify wound care prior to discharge or
place discharge wound care orders.” The Wound Care Consult recommendations are
incorporated into the discharge plan for supplies and follow up appointment. The
patient’s medicine team co-signs the wound care consult.

Wound Care Team will perform random patient record audits monthly for the next
3 months to ensure compliance and will be reflected in the Wound Care Committee
minutes. This will also be reported to the Clinical Executive Board in April.

Recommendation 8. We recommended that processes be strengthened to ensure that
staff complete and document restorative nursing services according to clinician orders
and/or residents’ care plans and that compliance be monitored.

Concur

Target date for completion: June 30, 2014

Facility response: Restorative orders and care plans are being reviewed with
restorative staff. Restorative nursing documentation and care plans have been updated
and documentation of treatment plans is being updated daily.

Compliance audits will be maintained at 90% compliance for the next 4 months and
then will be conducted randomly.

Recommendation 9. We recommended that processes be strengthened to ensure that
all care planned/ordered assistive eating devices are provided to residents for use
during meals.

Concur

Target date for completion: April 30, 2014




VA OIG Office of Healthcare Inspections                                                       24
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO


Facility response: Nutrition and Food Service (N&FS) will review all ordered assistive
devices in collaboration with the Restorative Registered Nurse to ensure availability.
Current ordered assistive devices are available to CLC residents. CLC are now
monitoring for adequate stock of adaptive cups and knives.

N&FS will maintain a tracking sheet of patients who are planned/ordered assistive
eating devices and establish a par level to ensure an appropriate amount is available for
this patient population. Inventory results will be tracked daily and reported quarterly.
Par levels will be adjusted as needed.

Recommendation 10. We recommended that processes be strengthened to ensure
that there are no unnecessary disruptions during resident meal periods.

Concur

Target date for completion: May 30, 2014

Facility response: The dining room will be off limits to housekeeping staff during meal
times while patients are present, unless absolutely necessary.            Housekeeping
Supervisors will monitor for compliance daily. Utensils will be made available to
residents at all meal times. Staff will monitor CLC cart to ensure silverware is washed
and ready for each meal maintaining 90% compliance. Food preparation and meal
schedules will be reviewed with staff to ensure timely meal preparation to meet
95% compliance.

Compliance audits will be performed during the next 3 months to ensure
95% compliance and then random PRN observations.




VA OIG Office of Healthcare Inspections                                                       25
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Clarissa Reynolds, CNHA, MBA, Team Leader
Contributors            Michael Bishop, MSW
                        Laura Dulcie, BSEE
                        Virginia Solana, RN, MA
                        Ann Ver Linden, RN, MBA
                        Cheryl Walker, ARNP, MBA
                        Darrin Gilbert, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       26
                             CAP Review of the VA Eastern Colorado Health Care System, Denver, CO
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, VA Eastern Colorado Health Care System (554/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Michael F. Bennet, Mark Udall
U.S. House of Representatives: Mike Coffman, Diana DeGette, Ed Perlmutter,
 Jared Polis


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       27
                                     CAP Review of the VA Eastern Colorado Health Care System, Denver, CO
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             28
                                     CAP Review of the VA Eastern Colorado Health Care System, Denver, CO



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    29
